Aud
  dit Rep
        port




OIG-12--035
SAFETYY AND SOU
              UNDNESS:: Material Loss Review
                                           w of Amco
                                                   ore
Bank, N.A.
      N
Decemb
     ber 28, 2011




Office of
   pectorr General
Insp
    RTMENT OF THE TREASUR
DEPAR                   RY
Contents

Audit Report

  Causes of Amcore’s Failure ........................................................................          3

      High Concentration in Commercial Real Estate Loans ................................                      3

      Inadequate Risk Management, Underwriting, and Credit Administration .......                              5

  OCC’s Supervision of Amcore .....................................................................            6

      Midsize Bank Supervision Did Not Address an OCC Expert’s Concerns ........                               8

      Examination Documentation Was Incomplete ..........................................                    10

      2005 ROE Delayed ..............................................................................        11

      OCC Appropriately Used Prompt Corrective Action ..................................                     11

  Recommendations .....................................................................................      13

Appendices

  Appendix    1:      Objectives, Scope, and Methodology ....................................                16
  Appendix    2:      Background........................................................................     19
  Appendix    3:      Management Response ......................................................             21
  Appendix    4:      Major Contributors to This Report ........................................             24
  Appendix    5:      Report Distribution .............................................................      25

Abbreviations

  BSA                     Bank Secrecy Act
  CRE                     commercial real estate
  EIC                     examiner-in-charge
  FDIC                    Federal Deposit Insurance Corporation
  MRA                     matter requiring attention
  OIG                     Department of the Treasury Office of Inspector General
  OCC                     Office of the Comptroller of the Currency
  PCA                     prompt corrective action
  ROE                     report of examination




                      Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                               Page i
         This Page Intentionally Left Blank




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)   Page ii
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       December 28, 2011

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our review of the failure of
                       Amcore Bank, N.A. (Amcore), of Rockford, Illinois, and of the
                       Office of the Comptroller of the Currency’s (OCC) supervision of
                       the institution. OCC closed Amcore and appointed the Federal
                       Deposit Insurance Corporation (FDIC) as receiver on
                       April 23, 2010. This review was mandated by section 38(k) of the
                       Federal Deposit Insurance Act because of the magnitude of
                       Amcore’s estimated loss to the Deposit Insurance Fund. 1,2
                       Although Amcore’s estimated loss varied during our review, it
                       remained above $200 million for most of the time, and as such we
                       considered the loss material. The estimated loss reached a high of
                       $320.9 million as of December 31, 2010, and as of
                       October 31, 2011, FDIC estimated the loss at $154.5 million. FDIC
                       also estimated that Amcore’s failure resulted in a loss of
                       $8.7 million to its Transaction Account Guarantee Program.

                       Our objectives were to determine the causes of Amcore’s failure;
                       assess OCC’s supervision of the bank, including implementation of
                       the prompt corrective action (PCA) provisions of section 38; and
                       make recommendations for preventing such a loss in the future. To
                       accomplish these objectives, we reviewed the supervisory files and
                       interviewed OCC and FDIC officials. We also reviewed the
                       documentation of Amcore’s external auditor related to its

1
  At the time of Amcore’s failure, section 38(k) defined a loss as material if it exceeded the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines
a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Definitions of certain terms, which are underlined where first used in this report, are available in
OIG-11-065, Safety and Soundness: Material Loss Review Glossary (April 11, 2011). That document is
available on the Department of the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.


                       Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                       Page 1
                       evaluation under applicable professional standards of the bank’s
                       status as a going concern for the audits of the bank’s 2007, 2008,
                       and 2009 financial statements. 3 We conducted our fieldwork from
                       June 2010 through March 2011. Appendix 1 contains a more
                       detailed description of our review objectives, scope, and
                       methodology. Appendix 2 contains background information on
                       Amcore’s history and OCC’s assessment fees and examination
                       hours.

                       In brief, Amcore failed primarily because it had high concentrations
                       in commercial real estate (CRE) loans and ineffective credit risk
                       management, underwriting, and credit administration. These
                       factors, combined with severe declines in real estate markets,
                       resulted in Amcore’s asset quality deterioration, and the bank’s
                       eventual failure. Regarding supervision, OCC’s Midsize Bank
                       Supervision office 4 did not take timely supervisory actions to
                       address Amcore’s problems, nor did OCC take forceful
                       enforcement actions until it was too late to avert Amcore’s failure.
                       Although concerns were raised by an OCC lead credit expert, 5 OCC
                       did not act promptly to address those concerns. In addition, OCC’s
                       examination workpapers and records were incomplete and did not
                       include emails that were important to the supervisory record. We
                       also noted that the 2005 report of examination (ROE) 6 was issued
                       more than 9 months after the end of the supervisory cycle.
                       Nevertheless, as Amcore’s capital levels deteriorated, OCC acted

3
  Statement of Auditing Standards 59 describes an auditor’s responsibility to evaluate whether there is
substantial doubt about an entity’s ability to continue as a going concern for a reasonable period of
time, not to exceed 1 year beyond the date of the financial statements being audited. Continuation of
an entity as a going concern is assumed in financial reporting in the absence of significant information
to the contrary. The auditor’s evaluation is based on his or her knowledge of relevant conditions and
events that exist at or have occurred prior to the date of the auditor’s report.
4
  OCC’s Midsize Bank Supervision is responsible for regulating companies that generally have between
$10 billion and $50 billion in assets, either in a single charter or aggregated among several charters.
Due to the complexity of these organizations, oversight is centralized under one deputy comptroller.
OCC assigns a dedicated examiner-in-charge (EIC) for continuous supervision of each midsize bank.
Although Amcore’s assets were below the $10 billion threshold for a midsize bank, it became part of
the Midsize Bank Supervision program when the asset threshold was lower.
5
  The lead credit expert serves in a quality assurance role in OCC’s Midsize Bank Supervision group. The
responsibilities of a lead expert include (1) providing feedback on supervisory documents prior to
submission to the bank and (2) performing independent reviews of the bank. The lead expert is a
resource for the examination team, providing an independent perspective of the bank’s performance.
6
  A report of examination is a summary of examiners’ conclusions about the bank’s condition drawn
from the results of examination activities throughout the 12-month supervisory cycle.


                       Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                     Page 2
                      timely to impose PCA restrictions but those restrictions did not
                      prevent the bank’s failure.

                      We are reaffirming a recommendation made in two previous
                      material loss reviews issued by our office that OCC emphasize to
                      its examiners the importance of maintaining adequate workpaper
                      documentation for examinations. 7 In addition, we are making three
                      new recommendations. Specifically, we recommend that OCC
                      ensure (1) Midsize Bank Supervision examiners and the supervisory
                      office 8 appropriately consider subject matter experts’ opinions in
                      examinations and maintain relevant documentation, (2) emails are
                      maintained in the supervisory record as appropriate, and (3) ROEs
                      are issued timely.

                      In a written response, OCC outlined the steps that it had taken, or
                      plans to take, to address our recommendations. The steps
                      described are responsive to the recommendations. OCC’s response
                      is included in full as appendix 3.

                      With respect to our review of the external auditor’s workpapers for
                      its audits of Amcore’s 2007, 2008, and 2009 financial statements,
                      we concluded that the auditor complied with professional
                      standards applicable to its evaluation of Amcore’s status as a going
                      concern.


Causes of Amcore’s Failure
                      High Concentration in Commercial Real Estate Loans

                      The primary cause of Amcore’s failure was its high concentration in
                      CRE loans. 9 OCC broadly defines concentrations as groups or
                      classes of credit exposures that share common risk characteristics
                      or sensitivities to economic, financial, or business developments.

7
  OIG, Safety and Soundness: Material Loss Review of National Bank of Commerce (OIG-09-042; issued
Aug. 6, 2009) and Safety and Soundness: Material Loss Review of the First National Bank of Nevada
and First Heritage Bank, National Association (OIG-09-033; issued Feb. 27, 2009).
8
  The supervisory office supports and oversees the EIC. Midsize Bank Supervision personnel who have
responsibility for support and oversight include supervisory office staff and an assistant deputy
comptroller.
9
  Construction and land development loans, nonfarm/nonresidential real estate loans, and multifamily
residential real estate loans collectively constitute CRE loans.


                      Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                  Page 3
                      According to OCC, a concentration exists when the common credit
                      exposures exceed 25 percent of the bank’s capital structure. In
                      addition, interagency guidance dated December 2006,
                      Concentration in Commercial Real Estate Lending, Sound Risk
                      Management Practices, 10 states that a bank is potentially exposed
                      to CRE concentration risk if either (1) loans for construction, land
                      development, and other land exceed 100 percent of total risk-
                      based capital or (2) total CRE loans represent over 300 percent of
                      total risk-based capital and the balance of the portfolio increases
                      more than 50 percent in the prior 36 months. Amcore’s CRE
                      concentration exceeded 300 percent of its total risk-based capital
                      for the period covered by our review—2004 through the bank’s
                      failure in 2010. In June 2007, OCC identified Amcore as the only
                      bank in its Midsize Bank Supervision portfolio that exceeded both
                      thresholds identified in the interagency guidance. Figure 1 on page
                      5 shows Amcore’s CRE loan growth from 2004 to 2009.

                      Amcore’s CRE loan portfolio grew steadily from 2004, reaching a
                      high of more than $2.2 billion in December 2006. Although the
                      portfolio decreased after December 2006, Amcore’s concentration
                      of CRE loans continued to increase as the bank’s capital levels
                      rapidly declined through March 2010.

                      The bank’s most significant CRE growth came in the form of riskier
                      construction and land development loans in Illinois and Wisconsin.
                      This portfolio grew from approximately $280 million in 2004 to
                      over $800 million in 2007. By 2005, the bank’s loans for
                      construction, land development, and other land exceeded
                      100 percent of total risk-based capital. Amcore’s considerable CRE
                      concentration, including risky construction and land development
                      loans, made it highly susceptible to negative market fluctuations.




10
  This joint guidance was issued by OCC, the Board of Governors of the Federal Reserve System, and
FDIC. OCC published this guidance as Bulletin 2006-46, Interagency Guidance on CRE Concentration
Risk Management, dated Dec. 6, 2006.


                      Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                  Page 4
             Figure
                  e 1: Amcore’ss CRE Loan Growth
                                          G      and Concentratio
                                                     C          on as a Perce
                                                                            entage of Risk
                                                                                         k-Based
             Capita
                  al, January 2004–December 2009

           $2.5                                                                                 900%

                                                                                                800%
           $2.0                                                                                 700%

                                                                                                600%
           $1.5
                                                                                                500%
Billions




                                                                                                400%
           $1.0
                                                                                                300%

           $0.5                                                                                 200%

                                                                                                100%

           $0.0                                                                                 0%


                            Tottal CRE (in billio
                                                ons)     CRE Loans as % o
                                                                        of Risk‐Based C
                                                                                      Capital
                               CRE loan conceentration risk tthreshold (300
                                                                          0% of total 
                               risk‐based cap
                                            pital) per interaagency guidancce

                    Source: OIG analysis off Amcore call reports.

                    The risk associated d with these high concentrations in CRE looans
                    exposed the bank to t significant losses during
                                                             d       the economic
                                                                         e
                    downturn n that begaan in 20077. The quality of Amc core’s CRE loans
                    deteriorated rapidlyy during this time whiich forced the bank to
                    recognizee extensive           es and make large prrovisions to
                                        e loan losse                              o its
                    allowance for loan and lease losses,
                                                   l       ero
                                                             oding its ea
                                                                        arnings and
                                                                                  d
                    capital. Amcore
                             A        rep
                                        ported commmercial baanking losses, primariily from
                    CRE loan ns, of $85.8 million in
                                                   n 2008 andd $135 milllion in 200
                                                                                  09.

                           ate Risk Ma
                    Inadequa         anagementt, Underwriiting, and Credit
                                                                    C
                    Administtration

                    Amcore’ss risk manaagement practices were inadequate, and its
                    underwriting and crredit admin
                                                 nistration were
                                                            w    ineffe
                                                                      ective. Thro
                                                                                 oughout
                    the period covered by our rev
                                                view, OCC examiners documentted
                    weaknesses in the bank’s pra actices including:




                    Material Losss Review of Amcore
                                             A      Bank, N.A. (OIG-12-035)                          Page 5
             •   ineffective appraisal function
             •   ineffective internal loan review function and inability to properly
                 risk rate loans
             •   incomplete allowance for loan and lease losses analysis
             •   inadequate multi-variable stress testing of the CRE loan portfolio
             •   insufficient financial analyses of the borrower and guarantor
                 support for commercial projects
             •   inadequate loan documentation
             •   excessive loan exceptions

             In its December 2007 ROE, OCC examiners stated that Amcore’s
             board oversight and risk management practices governing the
             commercial lending function were unsatisfactory. In this same ROE,
             OCC identified Amcore’s poor credit underwriting and
             administration, ineffective risk management processes, increasing
             credit risk, incomplete allowance for loan and lease losses analysis,
             and violations of appraisal requirements. OCC also reported that
             Amcore management did not implement risk management practices
             commensurate with its large CRE portfolio.


OCC’s Supervision of Amcore
             OCC performed examinations of Amcore in accordance with laws
             and regulations. In spite of this, OCC did not address the severity
             of Amcore’s problems in a timely manner. Likewise, OCC did not
             take forceful enforcement actions until it was too late to avert the
             bank’s failure. In this regard, an OCC lead credit expert raised a
             number of concerns with Amcore in 2006 and 2007. However, the
             Midsize Bank supervisory office did not promptly address these
             concerns. In addition, OCC’s examination workpapers and records
             did not contain all essential information required to support
             conclusions about supervisory activities. We also noted that the
             2005 ROE was issued more than 9 months after the end of the
             supervisory cycle. As Amcore’s capital levels deteriorated,
             however, OCC did act timely to impose PCA restrictions but those
             restrictions did not prevent the bank’s failure.

             The following table summarizes OCC’s safety and soundness
             examinations of Amcore and related enforcement actions from
             March 2004 to April 2010. Compliance examination information is



             Material Loss Review of Amcore Bank, N.A. (OIG-12-035)           Page 6
                        also included in the table when it involved a change in CAMELS
                        ratings or an enforcement action relevant to our audit.


Table 1. OCC Examinations of Amcore (March 2004-April 2010)


Examination                                         Examination Results
report datea/
Type of          Assets       CAMELS      No. of          Number of
examination      (billions)   rating      MRAs            Recommendations        Enforcement actions
12/31/2005           $4.6     2/222222          1                  10            Formal agreement (a
Full-scope                                                                       formal enforcement
examination                                                                      action) issued
                                                                                 5/31/2005 to address
                                                                                 consumer-related
                                                                                 compliance deficiencies.
6/15/2006            $5.3     2/223222          0                   0            None. This supervisory
Supervisory                                                                      letter notified Amcore of
letterb –non-                                                                    a downgrade to the
compliance                                                                       CAMELS management
with the Bank                                                                    component rating and
Secrecy Act                                                                      the intent to issue a
(BSA)c                                                                           Consent Order (a formal
                                                                                 enforcement action) for
                                                                                 BSA compliance
                                                                                 deficiencies.
3/31/2007            $5.3     2/223222          3                  10            Consent Order issued
Full-scope                                                                       8/10/2006 to address
examination                                                                      BSA and compliance
                                                                                 deficiencies.
12/31/2007           $5.3     3/233222          8                   0            Amcore notified of
Targeted                                                                         intent to issue a formal
examination of                                                                   agreement for credit
asset quality                                                                    deficiencies. Consent
                                                                                 Order remained in place.
3/31/2008            $5.2     3/233322          8                   0            Formal Agreement and
Full-scope                                                                       Consent Order related to
examination                                                                      the BSA and compliance
                                                                                 deficiencies terminated
                                                                                 on 4/14/2008. Formal
                                                                                 agreement issued
                                                                                 5/15/2008 to address
                                                                                 credit deficiencies.




                        Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                      Page 7
Table 1. OCC Examinations of Amcore (March 2004-April 2010)


Examination                                          Examination Results
report datea/
Type of           Assets       CAMELS      No. of          Number of
examination       (billions)   rating      MRAs            Recommendations        Enforcement actions
2/10/2009             $5.0     4/443432          0                   0            No new enforcement
Supervisory                                                                       action. This supervisory
letter - credit                                                                   letter notified Amcore of
                                                                                  downgrades to the
                                                                                  CAMELS composite
                                                                                  rating and component
                                                                                  ratings.
4/30/2009             $5.1     5/453543          0                   0            Notice of intent to
Full-scope                                                                        establish individual
examination                                                                       minimum capital ratios
                                                                                  issued 2/12/2009.
                                                                                  Consent Order issued
                                                                                  6/25/2009.
11/19/2009            $4.4     5/554554          0                   0            No new enforcement
Supervisory                                                                       action. This supervisory
letter– creditd                                                                   letter notified Amcore of
                                                                                  downgrades to the
                                                                                  CAMELS component
                                                                                  ratings.
Source: OCC ROEs, supervisory letters, and enforcement actions
a
  Under the continuous supervision model used by Midsize Bank Supervision, the report date for
full-scope examinations generally coincides with the end of the 1-year supervisory cycle. The report
should be issued to the bank within the supervisory cycle or within a reasonable time period after the
end of the cycle. However, as discussed in this report, the 2005 ROE was issued more than 9 months
after the end of the cycle, which exceeds a reasonable time period.
b
  A supervisory letter summarizes the results of each targeted examination performed by OCC. As part
of the continuous supervision process used by Midsize Bank Supervision, OCC performs targeted
examinations on individual assessment areas throughout the supervisory cycle. This table lists only
those supervisory letters that resulted in CAMELS rating changes.
c
  The Bank Secrecy Act requires U.S. financial institutions to assist U.S. government agencies to detect
and prevent money laundering. Among other things, it requires financial institutions to keep records of
cash purchases of negotiable instruments, file reports of cash transactions exceeding $10,000, and
report suspicious activity that might signify money laundering, tax evasion, or other criminal activities.
d
  This examination was directed by OCC’s Special Supervision Division.

                         Midsize Bank Supervision Did Not Address an OCC Expert’s
                         Concerns

                         In accordance with 12 U.S.C. § 1820(j), Consultation Among
                         Examiners, each appropriate federal banking agency shall ensure
                         that examiners consult on examination activities and achieve an


                         Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                      Page 8
                          agreement and resolve any inconsistencies in the recommendations
                          to be given to an institution as a consequence of any examination.

                          In the case of Amcore, a breakdown in OCC’s supervision occurred
                          during a period when Amcore was experiencing significant growth
                          in CRE loans. As a result, OCC missed the opportunity to take
                          timely action to address the bank’s underwriting and credit
                          administration weaknesses as soon as warranted. In 2005, Amcore
                          hired a Chief Credit Officer with relatively little credit experience.
                          OCC responded, appropriately, to both the bank’s significant CRE
                          portfolio growth and the concern with the Chief Credit Officer’s
                          inexperience by including Amcore as part of a 2006 CRE horizontal
                          loan review 11 of selected banks across the Midsize Bank
                          Supervision portfolio. As a result of this review, in July 2006, the
                          OCC lead credit expert expressed concerns that Amcore needed to
                          slow down CRE growth until the bank strengthened its supporting
                          infrastructure. In addition, the lead credit expert recommended that
                          matters requiring attention (MRAs) related to inadequate borrower
                          analysis and policy compliance deficiencies be added to the
                          October 2006 supervisory letter. However, OCC did not issue the
                          MRAs as recommended.

                          A March 2007 OCC Midsize Bank Supervision internal
                          memorandum, Quality Assurance Process Enhancements, assigned
                          the supervisory office with responsibilities for resolving any issues
                          raised by a lead expert to the satisfaction of both the expert and
                          the examiner-in-charge (EIC) prior to OCC issuing a supervisory
                          product to the bank. This requirement, however, was not followed
                          for Amcore. Specifically, the supervisory office responsible for
                          Amcore requested the expert’s opinions while drafting the March
                          2007 ROE. In response, the expert requested that concerns
                          regarding poor underwriting practices and the bank’s weak control
                          systems be added to the ROE. The supervisory office did not
                          include the expert’s concerns in the May 2007 ROE. Although
                          emails documented communication between the lead expert, the
                          supervisory office and Midsize Bank Supervision senior
                          management, the supervisory record did not include these emails
                          as documentation nor did it reflect that the expert’s concerns were
                          evaluated or resolved. In this regard, the lead credit expert


11
     Horizontal reviews are coordinated reviews of particular functional areas across multiple institutions.


                          Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                       Page 9
                        expressed concern to Midsize Bank Supervision senior management
                        that by not timely and effectively communicating the bank’s
                        condition to Amcore management, OCC was doing the bank a
                        disservice.

                        A supervisory official told us that the lead credit expert’s opinion
                        was considered but the recommendations were not accepted
                        because a judgment call had to be made on enforcement actions
                        and issues communicated to the bank based on all sources of
                        information. The supervisory office and examiners were also
                        managing competing demands for OCC and bank resources during
                        2006 due to the formal agreement in place in the compliance area.
                        We were told that the supervisory office did not necessarily
                        disagree with the lead credit expert, but due to limited resources,
                        they wanted more time to focus on the commercial credit area and
                        do a more in-depth review before fully accepting the expert’s
                        recommendations. We concluded that during 2006 and 2007,
                        examiners had already performed sufficient testing of commercial
                        credit loan files, but failed to recognize the severity of the problem.
                        We believe that, based on the results of the horizontal review and
                        other documentation, the lead credit expert correctly identified
                        significant problems with Amcore’s CRE loan portfolio in 2006,
                        that these concerns were not resolved as required by the Midsize
                        Bank Supervision quality assurance guidance, and that a stronger
                        OCC response was warranted. Ultimately, formal enforcement
                        action related to the bank’s commercial credit weaknesses was not
                        taken until May 2008, almost 2 years after the lead expert raised
                        concerns.

                        Examination Documentation Was Incomplete

                        According to OCC policy, workpapers are required to be legible and
                        concise, with descriptions of work, communications with banks,
                        and conclusions reached that are free of ambiguities. 12 Examination
                        documentation should also include copies of emails where
                        appropriate. In this regard, OCC guidance states examiners are
                        required to print and file official records that “add to the proper
                        understanding or execution of an OCC action or responsibility” in
                        OCC’s electronic recordkeeping system, Examiner View. 13

12
     OCC Policies and Procedures Manual 5400-8 “Supervision Work Papers” dated Oct. 23, 2002.
13
     OCC Brochure, Managing E-mail and Instant Messages as Official Records.


                        Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                  Page 10
                      Our review of OCC’s 2004 through 2006 workpapers revealed that
                      examiners did not follow OCC’s workpaper documentation
                      requirements. Examiners did not clearly document how the reviews
                      for individual loans were aggregated and evaluated to reach its
                      determination on Amcore’s credit risk. We also noted that many
                      emails that were relevant to the supervision of Amcore were not in
                      Examiner View, including important emails related to the lead credit
                      expert’s concerns with Amcore. 14

                      2005 ROE Delayed

                      OCC guidance states that in addition to communicating with the
                      bank throughout a supervisory cycle, OCC must provide the bank’s
                      board of directors with a ROE at least once during every
                      supervisory cycle. 15 Because of the continuous supervision model
                      in Midsize Bank Supervision, the ROE usually reports a summary of
                      examiners’ conclusions about the bank’s condition drawn from the
                      results of supervisory activities throughout the examination cycle.

                      While OCC performed timely examinations of Amcore in
                      accordance with laws and regulations, the ROE communicating a
                      summary of the bank’s composite CAMELS ratings and significant
                      risks for the supervisory cycle that ended in March 2005 was not
                      issued until December 2005. When asked about the delay, OCC did
                      not provide a plausible explanation. In the case of the 2005 ROE,
                      we believe the delay in issuing the ROE exceeded a reasonable time
                      period.

                      OCC Appropriately Used Prompt Corrective Action

                      We concluded that OCC used its authority in an appropriate and
                      timely manner under PCA. As Amcore’s capital levels deteriorated,
                      OCC acted timely to impose PCA restrictions on the bank.

                      The purpose of PCA is to resolve problems of insured depository
                      institutions with the least possible long-term loss to the Deposit
                      Insurance Fund. PCA requires federal banking agencies to take

14
   Because of gaps in the examination documentation available in Examiner View, we requested OCC
separately search for and provide relevant internal emails related to Amcore.
15
   OCC Large Bank Supervision Comptroller’s Handbook. This handbook covers the Midsize Bank
Supervision portfolio with regards to ROE written communications.


                      Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                Page 11
                       certain actions when an institution’s capital drops to certain levels.
                       PCA also gives regulators flexibility based on criteria other than
                       capital levels to help reduce deposit insurance losses caused by
                       unsafe and unsound practices.

                       As Amcore’s capital levels fell below the regulatory minimums for
                       the various PCA capital categories, OCC took the following key
                       actions:

                       •   Amcore’s capital level fell from well-capitalized to adequately
                           capitalized for the quarter ended March 31, 2009. On June 9,
                           2009, OCC notified Amcore of the change and that it was
                           restricted from accepting or renewing brokered deposits unless
                           a waiver was obtained from FDIC.

                       •   On June 25, 2009, OCC issued a consent order setting
                           minimum capital levels for the bank to be achieved by
                           September 30, 2009, and requiring the bank to submit an
                           appropriate capital plan within 30 days. Amcore submitted the
                           capital plan on July 24, 2009. On November 4, 2009, OCC
                           notified the bank that the capital plan was not acceptable
                           because it did not provide assurance that capital levels required
                           by the consent order would be achieved. At the time, in
                           accordance with PCA, OCC also notified the bank that it was
                           considered significantly undercapitalized based on the
                           September 30, 2009, call report, and required the bank to
                           submit a capital restoration plan or a disposition plan 16 by
                           December 4, 2009. OCC also notified the bank of restrictions
                           on asset growth, payment of capital distributions and
                           management fees, certain expansion activities, and certain
                           payments to senior executive officers. The bank was now
                           prohibited from accepting, renewing, or rolling over brokered
                           deposits; accepting employee benefit plan deposits; and making
                           golden parachute and indemnification payments.

                       •   The bank submitted a capital restoration plan to OCC on
                           December 4, 2009, and OCC rejected the plan on
                           January 8, 2010. The bank remained significantly
                           undercapitalized and was ultimately closed on April 23, 2010.
16
  A disposition plan details the board of director’s proposal to sell, merge, or liquidate the bank under
12 U.S.C. § 181.


                       Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                       Page 12
Recommendations
                       As a result of our material loss review of Amcore, we are
                       reaffirming a recommendation made in two previous material loss
                       reviews related to examination workpaper documentation. 17 In
                       these reports, OCC concurred with our recommendations to
                       emphasize to examiners OCC’s policy on the preparation of
                       supervision workpapers. This area warrants continued attention by
                       OCC. In addition, we are making three new recommendations.

                       We recommend that the Comptroller of the Currency:

                       1. Ensure the input of lead experts is considered in supervisory
                          decisions, Midsize Bank supervisory office personnel follow
                          established OCC guidance to resolve issues raised by the lead
                          expert to the satisfaction of the expert and the EIC, and
                          resolution of recommendations is documented. In this regard,
                          OCC should determine whether there are other concerns by lead
                          experts that are currently unresolved and ensure appropriate
                          agreement is reached on those matters.

                           Management Response

                           OCC changed the reporting structure for Midsize Bank
                           Supervision so that lead experts now report to the Midsize Bank
                           Supervision Risk Officer. The Risk Officer reports directly to the
                           Deputy Comptroller and does not have direct supervisory
                           responsibility for specific banks. This reporting line assures the
                           lead experts are not inhibited in expressing their independent,
                           objective perspectives on supervisory matters. To ensure that
                           lead expert input is fully considered in supervisory decisions,
                           Midsize Bank Supervision has incorporated mandatory lead
                           expert reviews in its supervisory product workflow. Lead
                           experts record their comments, recommendations, and any
                           concerns in the supervisory product document maintained in the
                           tracking system. EIC’s must then address the lead expert’s
                           comments, and any differences must be resolved to the
                           satisfaction of both parties prior to finalizing and issuing the
                           product to the bank. Any supervisory matters that have not

17
     OIG-09-042, Aug.6, 2009, and OIG-09-033, Feb. 27, 2009.


                       Material Loss Review of Amcore Bank, N.A. (OIG-12-035)         Page 13
   been resolved at the EIC/lead expert level are elevated to the
   Risk Officer for resolution. Versions of the supervisory product,
   reflecting the exchange of views and resolution of issues, are
   permanently retained in the tracking system as an audit trail.
   OCC confirmed that they currently have no unresolved concerns
   between the EICs and the lead experts.

   OIG Comment

   OCC’s response addresses our recommendation.

2. Ensure that relevant emails are maintained in the supervisory
   record (Examiner View) as appropriate.

   Management Response

   OCC agreed with our conclusion that Amcore’s examination
   documentation was incomplete. OCC stated that the standards
   communicated in its policies and procedures are complete,
   clear, and sufficient. Midsize Bank Supervision will reinforce to
   examining staff the importance of consistent and ongoing
   compliance with documentation expectations.

   OIG Comment

   OCC’s commitment to reinforce supervisory documentation
   expectations as described in its policies and procedures is
   responsive to our recommendation.

3. Implement policies and controls to monitor and ensure that
   ROEs are issued timely.

   Management Response

   OCC has implemented an automated system for tracking and
   monitoring all written supervisory communications, including
   ROEs, from submission by examiners through the time they are
   issued to the bank. This allows Midsize Bank Supervision to
   promptly identify any ROE or other communication that is not
   being reviewed and processed in a timely manner, and to
   address other issues. OCC will also reinforce to all staff the


Material Loss Review of Amcore Bank, N.A. (OIG-12-035)         Page 14
   importance of issuing ROEs and other supervisory products in a
   timely manner.

   OIG Comment

   OCC’s response addresses our recommendation.

                         *****

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5904 or Deborah Harker, Audit Manager,
at (202) 927-5762. Major contributors to this report are listed in
appendix 4.



/s/
Kieu T. Rubb
Audit Director




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)      Page 15
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Amcore Bank, N.A.
                        (Amcore) of Rockford, Illinois, in response to our mandate under
                        section 38(k) of the Federal Deposit Insurance Act. 18 This section
                        provides that if the Deposit Insurance Fund incurs a material loss
                        with respect to an insured depository institution, the inspector
                        general for the appropriate federal banking agency is to prepare a
                        report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action provisions of
                             section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        We initiated a material loss review of Amcore based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC),
                        which on the date of failure (April 23, 2010) was $197 million.
                        During the period of our review, Amcore’s estimated loss amount
                        varied, remaining above $200 million for most of the period, and
                        reaching as high as $320.9 million (as of December 31, 2010).
                        Because Amcore’s estimated loss remained above $200 million for
                        most of the review period, we considered Amcore’s loss material.
                        As of October 31, 2011, FDIC estimated that the loss to the
                        Deposit Insurance Fund from Amcore’s failure would be
                        $154.5 million.

                        Our objectives were to determine the causes of Amcore’s failure
                        and assess the Office of the Comptroller of the Currency’s (OCC)
                        supervision of the bank. To accomplish our review, we conducted
                        fieldwork at OCC headquarters in Washington, D.C., and its field
                        office in Chicago, Illinois. We interviewed personnel from OCC
                        headquarters and the field office, and from FDIC’s Division of
                        Supervision and Consumer Protection and Division of Resolutions
                        and Receivership. We conducted our fieldwork from June 2010
                        through March 2011.




18
     12 U.S.C. § 1831o(k).


                        Material Loss Review of Amcore Bank, N.A. (OIG-12-035)           Page 16
                        Appendix 1
                        Objectives, Scope, and Methodology




                        To assess the adequacy of OCC’s supervision of Amcore, we
                        performed the following work:

                        •   We reviewed OCC’s supervisory files and records for Amcore
                            from 2004 through 2010. We analyzed examination reports,
                            supporting workpapers, and related supervisory correspondence
                            to gain an understanding of the problems identified, the
                            approach and methodology OCC used to assess the bank’s
                            condition, and the regulatory action OCC used to compel bank
                            management to address deficient conditions.

                        •   We interviewed OCC officials and examiners and discussed
                            various aspects of Amcore supervision to obtain their
                            perspective on the bank’s condition and the scope of the
                            examinations. We also interviewed FDIC officials responsible for
                            monitoring Amcore for federal deposit insurance purposes.

                        •   We interviewed personnel from FDIC’s Division of Resolutions
                            and Receiverships involved in the receivership process, which
                            was conducted before and after Amcore’s closure and
                            appointment of a receiver.

                        •   Because of gaps noted with OCC’s examination documentation,
                            we obtained and reviewed OCC internal email related to
                            Amcore. We also obtained written assurances from OCC
                            officials and staff that we were provided all such emails.

                        •   We assessed OCC’s actions based on its internal guidance and
                            requirements of the Federal Deposit Insurance Act. 19

                        We obtained by Inspector General subpoena and reviewed the audit
                        documentation of Amcore’s external auditor related to its audits of
                        the bank’s 2007, 2008, and 2009 financial statements. The focus
                        of our review of that documentation was on the auditor’s
                        evaluation under applicable professional standards of the bank’s
                        status as a going concern.




19
     12 U.S.C. § 1811 et seq.


                        Material Loss Review of Amcore Bank, N.A. (OIG-12-035)        Page 17
Appendix 1
Objectives, Scope, and Methodology




We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)        Page 18
Appendix 2
Background




History of Amcore Bank, N.A.

Amcore Bank, N.A. (Amcore) was established as a federally
chartered national bank on September 7, 1931. The bank was
wholly owned by Amcore Financial, Inc., a single-bank holding
company. The bank’s headquarters was located in Rockford,
Illinois. As of December 31, 2009, Amcore conducted business at
66 branch locations throughout northern Illinois and southern
Wisconsin. On April 23, 2010, the Office of the Comptroller of the
Currency (OCC) closed Amcore and appointed the Federal Deposit
Insurance Corporation as receiver.

OCC Assessments Paid by Amcore

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also
applies a surcharge to the institution’s assessment to cover
additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for
3-rated institutions or by 100 percent for 4- and 5-rated
institutions. Table 2 shows the assessments that Amcore paid to
OCC from 2004 through 2010.

Table 2: Assessments Paid by Amcore to OCC, 2004–2010

                                                                    Percent of Total
Billing Period                Exam Rating          Amount Paid           Collections
January 2004                        2                    $352,870          0.147%
July 2004                           2                     368,827          0.148%
January 2005                        2                     386,465          0.135%
July 2005                           2                     401,725          0.137%
March 2006                          2                     424,864          0.140%
September 2006                      2                     430,496          0.135%
March 2007                          2                     434,266          0.130%
September 2007                      2                     435,343          0.127%
March 2008                          3                     406,340          0.114%
September 2008                      3                     607,412          0.168%
March 2009                          4                     608,676          0.159%
September 2009                      5                     788,894          0.210%



Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                      Page 19
Appendix 2
Background




                                                                    Percent of Total
Billing Period                Exam Rating          Amount Paid           Collections
March 2010                          5                    $641,872          0.168%
Source: OCC $MART database.


Number of OCC Staff Hours Spent Examining Amcore

Table 3 shows the number of OCC staff hours spent examining
Amcore from 2004 to 2009.

Table 3: Number of OCC Hours Spent on Examining Amcore, 2004-2009

    Examination Cycle                     Number of
       Start Date                  Examination Hours
        3/2/2004                             5,995
        3/2/2005                             6,823
        3/2/2006                             7,947
        3/2/2007                             9,813
        3/2/2008                             6,569
        3/2/2009                             7,294
Source: OCC Examiner View.
*Hours are totaled for safety and soundness examinations, information
technology examinations, and compliance examinations.




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)                      Page 20
Appendix 3
Management Response




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)   Page 21
Appendix 3
Management Response




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)   Page 22
Appendix 3
Management Response




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)   Page 23
Appendix 4
Major Contributors to This Report




Deborah L. Harker, Audit Manager
Eileen J. Kao, Auditor-in-Charge
Justin D. Summers, Auditor
Yvens A. Dalmeida, Auditor
Elisa J. Pegher, Auditor
Michael R. Shiely, Auditor
Annie Y. Wong, Referencer




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)   Page 24
Appendix 5
Report Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
   Group

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner

Federal Deposit Insurance Corporation

   Acting Chairman
   Inspector General

U.S. Senate

   Chairman and Ranking Member
   Committee on Banking, Housing and Urban Affairs

   Chairman and Ranking Member
   Committee on Finance

U.S. House of Representatives

   Chairman and Ranking Member
   Committee on Financial Services

U.S. Government Accountability Office

   Comptroller General of the United States




Material Loss Review of Amcore Bank, N.A. (OIG-12-035)        Page 25
